                    U.S. Department of Agriculture

                       Office of Inspector General
                                   Midwest Region




           Audit Report

FOOD SAFETY AND INSPECTION SERVICE’S
   IN-PLANT PERFORMANCE SYSTEM




                       Report No. 24601-0006-Ch
                                     March 2006
Executive Summary
Food Safety and Inspection Service’s In-Plant Performance System

Results in Brief    Over the past several years, FSIS has been confronted with some of the
                    largest product recalls in our nation’s history. As a result of these
                    recalls, the Government Accountability Office (GAO) and the Office of
                    Inspector General (OIG) conducted audits to assess management efforts
                    to oversee the inspection process and make recommendations to
                    strengthen agency management controls. In response to these audits,
                    FSIS is developing a management control system that will provide
                    assurance that the agency is accomplishing its mission of protecting
                    consumers from unsafe and unwholesome food products.

                    A key component of FSIS’ management control system is the In-Plant
                    Performance System (IPPS), which was established to strengthen
                    supervision and improve inspector accountability. In response to
                    several OIG audits, FSIS has cited IPPS reviews as a critical measure to
                    improve monitoring of food safety at meat and poultry establishments.
                    To gain support for and feedback on the new management control
                    system, FSIS headquarters officials have made presentations to field
                    management and frontline supervisors (supervisors). The officials also
                    made a presentation to OIG and solicited our input on the proposed
                    management control system.

                    We performed this audit to evaluate the adequacy of agency policy and
                    procedures related to preparing for, executing, and monitoring IPPS
                    reviews. Our audit found that FSIS’ policies and procedures were
                    generally adequate and that the system improved supervision and
                    inspector accountability. We did find, however, that the review process
                    could be strengthened in the areas of written guidance and management
                    oversight.

                    Of primary concern, supervisors were not always completing the entire
                    IPPS assessment sheet (review form) when evaluating inspectors. For
                    instance, we found that supervisors had not completed all sub-elements
                    on the IPPS review forms for 84 percent of the inspectors (100 of 119)
                    we examined. In many cases, supervisors had completed only one or
                    two sub-elements out of five or six within a performance element.
                    Many of the incomplete sub-elements related to critical aspects of an
                    inspector’s duties, such as Hazard Analysis and Critical Control Point
                    (HACCP) Procedures and Sanitation Standard Operating Procedures
                    (SSOP). They had also not performed the required number of IPPS
                    reviews for 13 percent of the inspectors, and had not completed all
                    required performance elements for 22 percent of the inspectors.



USDA/OIG-A/24601-6-CH                                                                Page i
                   We attributed this to agency guidance that either lacked clarity or did
                   not require supervisors to perform specific tasks. Also, FSIS had no
                   system to schedule and track the completion of IPPS reviews. As a
                   result, FSIS had reduced assurance that inspectors were properly
                   performing their duties and enforcing food safety regulations.

                   We also found that, while FSIS had developed extensive guidance
                   regarding data sources and system reports for supervisors to use when
                   preparing for IPPS reviews, the guidance did not identify critical
                   reports and require supervisors to use them. As a result, we found that
                   supervisors had not used significant segments of the guidance to
                   enhance their on-site review of consumer safety inspectors.

                   Additionally, we noted that the review process would be improved if
                   supervisors were required to write a narrative description for all
                   performance findings, including when inspector performance meets
                   expectation. We found that it was difficult to determine the adequacy
                   of reviews without narrative to support performance findings.
                   Although FSIS does require supervisors to include narrative when an
                   inspector’s performance is deficient or exceeds expectations, those
                   findings were minimal on the IPPS forms we analyzed. The majority
                   of findings fell into the “meets expectation” category, for which no
                   narrative was required.

                   FSIS could further improve inspector performance and professional
                   development by analyzing IPPS review data. Currently, FSIS analyzes
                   only establishment data to identify nationwide trends that affect food
                   safety and sanitation. Using IPPS data to identify deficiencies with
                   inspector performance could lead to specific training that would
                   directly impact the quality of inspections at establishments.

                   Overall, we concluded that by refining IPPS oversight and guidance,
                   FSIS can increase its assurance that inspectors are properly performing
                   their duties and enforcing food safety regulations.

Recommendations
In Brief           We recommended that FSIS management more closely monitor the
                   activities of field managers and supervisors involved in the IPPS
                   review process, analyze IPPS review data, and use the Office of
                   Program Evaluation, Enforcement, and Review to periodically evaluate
                   the IPPS review process. We further recommended that FSIS revise its
                   guidance to require supervisors to: examine specific data sources and
                   system reports prior to performing an IPPS review; complete all sub-
                   elements on IPPS review forms during an inspector’s rating period; and
                   provide narrative description for IPPS review elements when inspector
                   performance meets expectation.


USDA/OIG-A/24601-6-CH                                                              Page ii
                   Agency Response

                   In their response dated February 23, 2006, FSIS officials generally
                   agreed with the findings and recommendations contained in this report.
                   Actions on some recommendations have been completed, while others
                   are in process. We have incorporated applicable portions of FSIS’
                   response, along with our position, in the Findings and
                   Recommendations section of this report. The agency’s response is
                   included in its entirety as Exhibit A of the report.

                   OIG Position

                   We agree with FSIS officials’ response to the recommendations and
                   have reached management decisions on Recommendations 1, 2, 3, 4, 5,
                   and 6. Management decisions have not been reached for
                   Recommendations 7 and 8. Management decisions can be reached on
                   these recommendations once we receive the information specified in
                   the OIG Position section for each recommendation.




USDA/OIG-A/24601-6-CH                                                            Page iii
Abbreviations Used in This Report


EARO                Executive Associate for Regulatory Operations
FSIS                Food Safety and Inspection Service
GAO                 Government Accountability Office
HACCP               Hazard Analysis and Critical Control Point
IPPS                In-Plant Performance System
OFO                 Office of Field Operations
OIG                 Office of Inspector General
OPEER               Office of Program Evaluation, Enforcement, and Review
PBIS                Performance Based Inspection System
PH/OCP              Public Health to Other Consumer Protection
SSOP                Sanitation Standard Operating Procedures
USDA                United States Department of Agriculture




USDA/OIG-A/24601-6-CH                                                       Page iv
Table of Contents

Executive Summary ....................................................................................................................... i

Abbreviations Used in This Report ............................................................................................ iv

Background and Objectives ......................................................................................................... 1

Findings and Recommendations.................................................................................................. 3

    Section 1. IPPS Guidance ....................................................................................................... 3

        Finding 1            Supervisors Need To Complete IPPS Reviews............................................. 3
                                 Recommendation 1 ................................................................................ 6
                                 Recommendation 2 ................................................................................ 6
                                 Recommendation 3 ................................................................................ 7
        Finding 2            Supervisors Need To Use Critical Data When Preparing for IPPS
                             Reviews ......................................................................................................... 8
                                 Recommendation 4 .............................................................................. 10
                                 Recommendation 5 .............................................................................. 10
        Finding 3            Narrative Not Required When Performance Met Expectation.................... 11
                                 Recommendation 6 .............................................................................. 12

    Section 2. Oversight of IPPS Reviews .................................................................................. 13

        Finding 4            IPPS Review Data Not Analyzed................................................................ 13
                                 Recommendation 7 .............................................................................. 14
        Finding 5            OPEER Needs To Monitor the IPPS Process.............................................. 14
                                 Recommendation 8 .............................................................................. 16

Scope and Methodology.............................................................................................................. 17

Exhibit A – FSIS’ Response to Draft Report............................................................................ 18




USDA/OIG-A/24601-6-CH                                                                                                                 Page v
Background and Objectives
Background                           The Food Safety and Inspection Service (FSIS) was established to
                                     ensure that the nation's commercial supply of meat, poultry, and egg
                                     products is safe, wholesome, and correctly labeled and packaged, as
                                     required by law. 1 To accomplish its mission, FSIS inspects meat,
                                     poultry, and egg products sold in the United States and in foreign
                                     commerce, including imported products. FSIS has more than 7,500
                                     inspectors performing this activity at approximately 6,300
                                     establishments nationwide.

                                     The In-Plant Performance System (IPPS) is a tool supervisors use to
                                     assess the work of non-supervisory in-plant inspection program
                                     personnel. IPPS provides a first-hand, on site observation of how well
                                     an employee conducts FSIS inspection and verification procedures in
                                     federally inspected establishments. FSIS developed the IPPS review
                                     process to ensure that its public health regulatory mission is being
                                     properly carried out by its inspection force. The IPPS review process
                                     identifies and addresses the need to improve employee’s knowledge of
                                     job requirements, ensures consistency in the application of inspection
                                     methods and regulatory decision-making, identifies performance
                                     problems, and recognizes on target and noteworthy performance by
                                     inspection program personnel.

                                     Supervisors are required to perform IPPS reviews of non-supervisory
                                     inspection program personnel at least twice a year. FSIS officials
                                     suggest that these visits be conducted, if possible, between the months
                                     of August and December, and between the months of March and May,
                                     each year. During visits, supervisors are required to evaluate inspector
                                     performance in five areas: Hazard Analysis and Critical Control Point
                                     (HACCP) Procedures, Sanitation Standard Operating Procedures
                                     (SSOP), Inspection and Sampling Procedures, Liaison and
                                     Administrative Duties, and Ante-mortem and Post-mortem Inspection
                                     Procedures.

                                     In past years, the Office of Inspector General (OIG) 2 and the
                                     Government Accountability Office (GAO) 3 have issued reports that
                                     identified serious food safety issues and recommended improved
                                     monitoring of inspector activities. To address these issues, FSIS Office
                                     of Field Operations (OFO) implemented the initial phase of a new
                                     management control system in May 2005. FSIS plans to develop and

1
  The Federal Meat Inspection Act, dated March 4, 1907, the Poultry Products Inspection Act, dated August 28, 1957, and the Egg Products
Inspection Act, dated December 29, 1970.
2
  Audit Report No. 24601-6-KC, “Food Safety and Inspection Service Oversight of Production Process and Recall at ConAgra Plant,” dated
September 2003.
3
  GAO Report No. 02-902, “Better USDA Oversight and Enforcement of Safety Rules Needed to Reduce Risk of Foodborne Illness,” dated
August 2002.

USDA/OIG-A/24601-6-CH                                                                                                               Page 1
                   implement additional phases of the system in the next fiscal year. The
                   purpose of this system is to provide multi-layered, in-depth
                   management oversight of public health activities carried out through
                   OFO.

                   FSIS Headquarters officials stated that the IPPS review process will be
                   a key element in the management control system. The management
                   control system will provide OFO with assurance that it is protecting
                   public health by achieving and maintaining specific levels of
                   performance in its daily food safety and security operations. As part of
                   the management control system, IPPS reviews will ensure that
                   supervisors focus on whether or not inspection personnel are verifying
                   that    establishments    have     taken     corrective   action    and
                   preventative measures in response to noncompliance issues.

Objectives         Our objective was to determine if FSIS had adequate guidelines and
                   directives to prepare for, execute, and monitor IPPS reviews.




USDA/OIG-A/24601-6-CH                                                               Page 2
Findings and Recommendations
Section 1. IPPS Guidance

                        The FSIS inspection process is critical in accomplishing the agency’s
                        mission of protecting consumers from unsafe and unwholesome food
                        products. To enhance inspection effectiveness, FSIS implemented the
                        IPPS review process, which is designed to assist supervisors in
                        evaluating inspector performance and adherence to agency standards.
                        Our audit disclosed that agency guidance related to implementing IPPS,
                        while generally adequate, could be strengthened to improve the review
                        process.

                        In particular, FSIS guidelines need to require that managers
                        and supervisors: (1) more closely monitor the IPPS review process,
                        (2) examine specific data sources and system reports prior to
                        performing an IPPS review, (3) complete all sub-elements on IPPS
                        assessment sheets 4 (review forms) during an inspector’s rating period,
                        and (4) provide narrative description for IPPS review elements when
                        inspector performance meets expectation. These measures, if
                        implemented, would provide agency managers with greater assurance
                        that inspectors are performing their critical food safety role in
                        accordance with agency standards.




Finding 1               Supervisors Need To Complete IPPS Reviews

                        Supervisors had not completed comprehensive IPPS reviews.
                        Specifically, they had not completed all of the sub-elements on IPPS
                        review forms for 84 percent of the inspectors in our analysis, had not
                        performed the required number of IPPS reviews for 13 percent of the
                        inspectors, and had not provided narrative for deficient or exceptional
                        performance for 17 percent of the IPPS reviews, as required. We
                        attributed this to agency guidance that lacked clarity and did not require
                        supervisors to perform specific tasks. Further, FSIS had no system to
                        schedule and track the completion of IPPS reviews. As a result,
                        FSIS has reduced assurance that inspectors properly performed their
                        duties and enforced food safety regulations.

                        IPPS Forms Not Fully and Accurately Completed

                        The IPPS form contains five elements related to an area of inspector
                        responsibility, such as HACCP procedures, SSOP, and inspection and

4
    FSIS Form 4430-8.

USDA/OIG-A/24601-6-CH                                                                      Page 3
                   sampling procedures. Within each element are five to seven sub-
                   elements, which relate to specific skills that inspectors perform. Our
                   review of IPPS forms for 119 inspectors found that supervisors had not
                   completed all sub-elements for 100 of those inspectors, or 84 percent.

                   FSIS directive 4430.3.X.2a states that supervisors should select a
                   “sufficient number of sub-elements” when performing IPPS reviews to
                   cover all applicable elements for the annual review period. Like the
                   directive, the IPPS review guidelines do not specify the number of sub-
                   elements that must be completed; however, they do state that
                   supervisors must verify that inspection personnel are applying the
                   appropriate inspection methodology, utilizing effective decision-
                   making, documenting their findings, and implementing enforcement
                   actions. Thus, in order to comply with the IPPS review guidelines,
                   supervisors would need to perform a thorough evaluation using all sub-
                   elements on the IPPS form. It is important that supervisors review all
                   the sub-elements to ensure that inspectors understand and implement
                   the requirements for each element, and that inspectors are thoroughly
                   evaluated in all tasks identified by those elements.

                   Our review disclosed, however, that some supervisors completed only
                   one or two sub-elements, out of five to seven for each element, on IPPS
                   forms. For example, we found multiple instances where supervisors
                   completed only two of the six sub-elements within the HACCP
                   element, which is a critical element, for the entire rating period. We
                   question whether supervisors can adequately assess inspector
                   performance using only two sub-elements, especially for critical
                   elements such as HACCP. The district manager for these supervisors
                   stated that the agency directive did not require the completion of all
                   sub-elements.

                   We discussed the IPPS guidelines concerning sub-elements with a key
                   headquarters official who stated that the directive and guidelines were
                   intended to require the completion of all sub-elements during an
                   inspectors rating period. The official acknowledged, though, that the
                   directive was unclear regarding the completion of the sub-elements. In
                   order to ensure that inspectors are accurately evaluated in all areas of
                   responsibility, the IPPS directive and guidelines need to clearly state
                   that all sub-elements must be completed by the end of each rating
                   period.

                   Our analysis also found that supervisors had not completed all required
                   performance elements for 22 percent (26 of 119) of the inspectors.
                   FSIS directives state that the IPPS review performance elements for
                   HAACP, SSOP, Liaison, and Sampling, must be completed for each
                   inspector during a rating period.


USDA/OIG-A/24601-6-CH                                                               Page 4
                                       We also found 43 instances (from 250 IPPS reviews) where supervisors
                                       had rated a performance element for an inspector as deficient or
                                       exceeds expectations, but had not provided the required narrative to
                                       support the findings. FSIS guidance 5 requires that supervisors provide
                                       narrative description for deficiencies and exceptional performance on
                                       IPPS review forms. In our view, sufficient documentation is needed for
                                       managers to verify that supervisors adequately evaluated inspector
                                       performance in these critical circumstances.

                                       The managers at both district offices we visited informed us they
                                       required supervisors to submit completed IPPS reviews, and that if time
                                       permits, they generally examined those reviews for accuracy. They
                                       pointed out that there was no requirement to do so. However, our
                                       review found they had not detected that many supervisors had not
                                       completed all performance elements on the forms, and had not provided
                                       narrative for performance elements rated as deficient.

                                       IPPS Reviews not Performed

                                       Our audit found that supervisors had not performed the required
                                       number of IPPS reviews during a rating period and had not always
                                       completed the forms correctly. These problems were not detected by
                                       district managers. FSIS directives require that each inspector receive
                                       two IPPS reviews during a rating period. Agency supervisors are
                                       responsible for performing the reviews and ensuring that all required
                                       reviews are completed during a rating period. We analyzed IPPS
                                       reviews for 119 inspectors that were completed during the rating period
                                       from March 1, 2004, to June 30, 2005. Our analysis identified
                                       15 inspectors (13 percent) that had received only one IPPS review
                                       during the rating period.

                                       District managers stated that since there was no agency policy requiring
                                       them to ensure the completion of IPPS reviews; they did not always do
                                       so. We also noted that they had no system to schedule IPPS reviews
                                       and track the completion of those reviews. For these reasons, they had
                                       not detected that supervisors failed to complete all required IPPS
                                       reviews.

                                       The Executive Associates for Regulatory Operations (EARO) are
                                       responsible for overall planning, leadership, administration, and
                                       evaluation of district offices. However, we found no evidence that they
                                       monitored the activities of district managers who were overseeing the
                                       IPPS review process. Based on our discussion with FSIS officials
                                       during the audit, they informed us that revisions will be made to the
                                       proposed management control system that will require district
                                       managers to examine ten percent of all IPPS reviews,

5
    FSIS Directive 4430.3 X.A.4, dated June 17, 2002.

USDA/OIG-A/24601-6-CH                                                                                   Page 5
                   and EARO to examine two percent of those examined by district
                   offices.

                   These proposed measures would strengthen monitoring of the IPPS
                   review process, and reduce some of the errors disclosed during our
                   audit. However, agency officials were unable to provide timeframes
                   for implementing the proposed changes. Furthermore, the proposed
                   measures will not correct some errors, such as uncompleted reviews,
                   which would be better detected using a scheduling and tracking system.

Recommendation 1

                   Revise the IPPS directive and guidelines to state that all sub-elements
                   must be completed during each inspector’s rating period.

                   Agency Response

                   On November 18, 2005, FSIS officials issued FSIS Directive
                   4430.3, Rev. 1, which stated that, “supervisors are to select a sufficient
                   number of elements (and their subsets) to cover during the IPPS
                   assessment so the supervisor has covered all applicable elements for the
                   position before the end of the annual rating.” Additionally, section
                   VIII.D states that, “supervisors at their discretion may conduct more
                   than two IPPS assessments during the rating year and should do so if
                   they cannot thoroughly assess the entire performance element over the
                   two assessments.”

                   FSIS officials further stated they are in the final stages of revising IPPS
                   training which will be completed by March 2006.

                   OIG Position

                   We accept FSIS’ management decision for this recommendation. Final
                   action can be reached when the training revision is completed.

Recommendation 2

                   Strengthen monitoring by establishing a system to schedule and track
                   the completion of IPPS reviews.

                   Agency Response

                   FSIS Directive 4430.3, Rev. 1, issued on November 18, 2005, instructs
                   supervisors to conduct at least two IPPS reviews. One review is to be
                   conducted after issuance of performance standards and before the
                   beginning of the rating cycle. The second review is to be conducted


USDA/OIG-A/24601-6-CH                                                                 Page 6
                   after the midyear performance progress review and the annual
                   performance appraisal.

                   In addition, FSIS is currently working with a contractor to develop an
                   application called AssuranceNet, which will allow FSIS to track the
                   completion of IPPS reviews. Implementation is expected by July 2006.

                   OIG Position

                   We accept FSIS’ management decision for this recommendation. Final
                   action can be reached when the tracking system is completed.

Recommendation 3

                   Require district managers to examine IPPS reviews to ensure that the
                   narrative clearly describes the supervisor’s findings, particularly when
                   deficiencies are noted or exceptional performance is observed; and
                   ensure that all performance elements are completed for inspectors
                   during the rating year.

                   Agency Response

                   In their response, FSIS officials stated that the FSIS Office of Field
                   Operation’s Management Control System requires the Frontline
                   Supervisor to review 10 percent of IPPS assessments and District
                   Managers to review 10 percent of IPPS assessments (at least one
                   percent by direct observation) conducted by Frontline Supervisors. In
                   addition, AssuranceNet will report if the required IPPS assessments
                   were completed for each employee and that the required elements were
                   fully completed. Implementation of AssuranceNet is expected by July
                   2006.

                   In addition, FSIS Directive 4430.3 Rev. 1, section IX.C states that
                   “subsequent levels of supervision, up to and including the District
                   Office management, may have additional procedures in place and
                   require copies of the IPPS Assessment Sheet for supervisory review or
                   management control.”

                   OIG Position

                   We accept FSIS’ management decision for this recommendation. Final
                   action can be reached when AssuranceNet is implemented.




USDA/OIG-A/24601-6-CH                                                               Page 7
Finding 2                           Supervisors Need To Use Critical Data When Preparing for
                                    IPPS Reviews

                                    Supervisors had not used critical data sources and system reports when
                                    preparing for IPPS reviews. Although FSIS issued extensive guidance
                                    regarding preparation for the reviews, it did not highlight key data
                                    sources as critical and require supervisors to use them. As a result, we
                                    questioned whether supervisors were adequately preparing for IPPS
                                    reviews and accurately assessing inspectors’ performance.

                                    FSIS provides extensive guidance 6 regarding data sources and system
                                    reports available to supervisors as they prepare for IPPS reviews. The
                                    guidance states that prior to conducting an IPPS review, the supervisor
                                    must become thoroughly familiar with the establishment’s history,
                                    production procedures, and validation and verification activities. To
                                    assist supervisors in their preparation, the guidance lists numerous
                                    types of data and reports available through agency databases.

                                    FSIS updates the guidance periodically, and it included 44 sources at
                                    the time of our audit. However, it does not identify which of these data
                                    sources require examination prior to performing an IPPS review.
                                    Further, some of the data sources and system reports remain constant
                                    and never change. An FSIS Headquarters official stated that all of the
                                    sources listed in the guidance were considered critical and that
                                    supervisors were expected to use them.

                                    Although our analysis of the agency’s guidance found that most, if not
                                    all, of the data sources and reports were useful in preparing for IPPS
                                    reviews, the guidance was so extensive that many supervisors found it
                                    difficult to examine all of it prior to performing a review. In fact, our
                                    interviews with 10 of the 21 supervisors at two district offices disclosed
                                    that the supervisors did not generally review data sources suggested in
                                    the agency guidance, primarily because it was too voluminous. Several
                                    supervisors stated that they used data appropriate for the inspector and
                                    establishment, and that they would be more likely to review a shorter
                                    list of data sources and system reports. However, even the supervisors
                                    who told us that they had used all of the guidance, could not provide
                                    documentation to substantiate their assertion.

                                    Even worse, most of the supervisors were not using the nine system
                                    reports listed below which we identified as critical based on our
                                    analysis and discussion with an FSIS Headquarters official.
6
  The In-Plant Performance System Supervisory Guidelines, dated February 2004, and the FSIS Directive number 4430.3, In-Plant Performance
System Reviews, dated June 17, 2002.

USDA/OIG-A/24601-6-CH                                                                                                            Page 8
                                      Specifically, of the 10 supervisors we interviewed:

                                         •     None had reviewed the Random Sample Request Tracking
                                               report;
                                         •     9 had not examined the Current Testing Status report;
                                         •     7 had not reviewed the Plant Profile, the Non-Responder, and
                                               the Results Not Entered reports;
                                         •     6 had not reviewed the PH/OCP report;
                                         •     3 had not reviewed the Procedures Not Performed report; and
                                         •     1 had not reviewed the Non-Compliance Record Summary
                                               report, which we believe should be used in all instances to
                                               prepare for an IPPS review.

                                    In our view, these reports should be classified as critical in FSIS’
                                    guidance because they would best assist supervisors in evaluating
                                    inspector performance. The Non-Compliance Record Summary report
                                    is arguably the most critical of these reports because it identifies
                                    instances where inspectors have cited establishments for deficiencies.
                                    Supervisors can and should use this report to identify anomalies with
                                    inspector activities. The lack of non-compliance determinations should
                                    lead supervisors preparing for IPPS reviews to determine whether plant
                                    problems, material and otherwise, are not being identified and
                                    documented by inspection personnel. For instance, an OIG audit 7 found
                                    that an inspector knew of recurring sanitation deficiencies at an
                                    establishment, but was not citing it for non-compliance. The
                                    establishment later had to recall over 4.2 million pounds of ready-to-eat
                                    poultry product because of sanitation issues. In this case, the lack of
                                    noncompliance records was an indicator of a serious inspector
                                    performance problem.

                                    Similarly, the Non-Responder report identifies inspectors who are not
                                    taking samples for pathogen testing. We analyzed non-responder data
                                    for the period April 1, 2005, through June 30, 2005, for one of the
                                    districts in our audit, and found that inspectors had not responded to
                                    22 percent of the requests for E. coli 0157:H7 samples on raw ground
                                    beef. Inspectors also had not responded to 24 percent of the sample
                                    requests for Listeria monocytogenes testing on ready-to-eat products.
                                    This may or may not be a problem. However, supervisors should
                                    follow up during IPPS review to ensure that inspection personnel have
                                    not neglected their sampling duties.

                                    We had similar reasons for including the other seven reports on our list.
                                    Those reports, in our view, would provide the greatest value in
                                    detecting consumer safety inspector performance weaknesses and
7
 OIG Report No. 24601-0002-HY, “Food Safety and Inspection Service Oversight of the Listeria Outbreak in the Northeastern United States,”
dated June 2004.

USDA/OIG-A/24601-6-CH                                                                                                             Page 9
                   supervisors should be required to examine them prior to performing an
                   IPPS review. The remaining data sources and system reports included
                   in FSIS’ guidance should be optional and used by supervisors
                   depending on the circumstances surrounding the establishment or
                   inspector.

Recommendation 4

                   Revise the IPPS review guidance to identify as critical the nine data
                   sources and reports cited above, and require supervisors to use these
                   sources when preparing for IPPS reviews.

                   Agency Response

                   FSIS officials responded that the revised FSIS Directive 4430.3, Rev.
                   1, In-Plant Performance System (IPPS), Section X.A.3, instructs
                   supervisors to research and review relevant data that applies to the
                   element(s) being assessed to identify potential problem areas to focus
                   on during the IPPS assessment.

                   FSIS officials stated that the revised guidelines identify a number of
                   data sources supervisors should use in preparation for an IPPS
                   assessment and specifically how these data might apply. Therefore, we
                   instruct supervisors to use the applicable data sources that apply to the
                   occupation being assessed, but cannot be prescriptive about it since
                   applicability depends on the occupation, the assignment of the
                   employee to be assessed, and the specific aspects of the job that are
                   being assessed on a given IPPS visit.

                   FSIS officials further stated that, in the next version of the supervisory
                   guide, they will strengthen and emphasize the references to using
                   available data in PBIS and other systems. They will also include an
                   example of a completed IPPS Form that will further emphasize the
                   importance of identifying data sources used when performing IPPS
                   assessments and documenting IPPS results. The next revisions of the
                   guides are expected in the next 6 months.

                   OIG Position

                   We accept FSIS’ management decision for this recommendation. Final
                   action can be reached when the guides are revised to address the above
                   issues in the next 6 months (August 2006).

Recommendation 5

                   Require supervisors to document their preparatory process for IPPS
                   reviews.

USDA/OIG-A/24601-6-CH                                                               Page 10
                                       Agency Response

                                       FSIS officials stated in their response that the revised guidelines require
                                       documenting the process used to prepare for and conduct an IPPS
                                       review, including the development of a plan and outline for the visit.
                                       FSIS officials further stated that their revised IPPS training will
                                       emphasize the importance of preparation and will be completed by
                                       March 2006.

                                       OIG Position

                                       We accept FSIS’ management decision for this recommendation. Final
                                       action can be reached when the revised training is completed.




Finding 3                              Narrative Not Required When Performance Met Expectation

                                       Supervisors had not provided narrative description for IPPS review
                                       elements when inspector performance met expectation. We attributed
                                       this to agency directives that require narrative descriptions for only
                                       deficiencies or exceptional performance. Consequently, we were unable
                                       to determine if supervisors had adequately assessed inspector
                                       performance for some IPPS reviews.

                                       FSIS guidance 8 requires that supervisors provide narrative description
                                       for deficiencies or exceptional performance on IPPS review forms. It
                                       does not require narrative when performance meets expectations. Our
                                       examination of 250 IPPS reviews found that it was difficult, if not
                                       impossible, to determine the adequacy of the reviews without narrative
                                       to support the performance findings. At one district office, we were
                                       unable to determine, in most cases, what the supervisor evaluated or the
                                       results of the evaluation. For example, the narrative for one review only
                                       listed the establishment number, the two SSOP procedure numbers, and
                                       a statement that the inspector “is very good at documenting non-
                                       compliances and taking regulatory action.” Another review only noted
                                       the establishment number and one sentence on the verification of
                                       HACCP plans.

                                       We noted that IPPS reviews at a second district office generally had
                                       narrative description when performance met expectation. This allowed
                                       us to make conclusions regarding the adequacy of the evaluations that
                                       we were not always able to do at the first district office. In general, the
                                       additional narrative demonstrated the supervisors’ thoroughness in

8
    FSIS directive 4430.1 IV.B, dated January 15, 1988.

USDA/OIG-A/24601-6-CH                                                                                    Page 11
                   performing the reviews. This included how the supervisors determined
                   that inspectors met performance requirements.

                   The manager at the second district office stated that they had recently
                   requested supervisors to include more narrative even though it
                   exceeded agency requirements. They did this to provide better
                   oversight of IPPS reviews. This action should be required throughout
                   the agency to improve the effectiveness of IPPS reviews.

Recommendation 6

                   Require narrative description on IPPS review forms for performance
                   that meets expectation.

                   Agency Response

                   FSIS officials stated that the revised guidelines instruct supervisors to
                   document narrative describing what was observed or reviewed, what
                   was concluded and the indications that demonstrate why the
                   performance is on-target, off-target, or noteworthy. The instructions for
                   the revised IPPS forms also instruct supervisors to clearly describe
                   what they reviewed, observed and discussed; what they concluded; and
                   what indications demonstrated why the performance was on target, off
                   target, or noteworthy.

                   In addition, they reiterated that the revised IPPS training is mandatory
                   for all field supervisors by March 2006, and will include the revised
                   instructions for IPPS forms noted above.

                   OIG Position

                   We accept FSIS’ management decision for this recommendation.
                   Final action can be reached when the revised training is completed.




USDA/OIG-A/24601-6-CH                                                              Page 12
Section 2. Oversight of IPPS Reviews

                    FSIS implemented the IPPS review process to assist supervisors in
                    evaluating inspector performance and ensuring adherence to agency
                    standards. Our audit disclosed that FSIS could improve its monitoring
                    of the IPPS review process. Specifically, FSIS needs to analyze IPPS
                    review data and use OPEER to independently evaluate the IPPS review
                    process. These measures, if implemented, would provide agency
                    managers with greater assurance that the IPPS review process was
                    functioning as intended, and that inspectors were performing their
                    critical food safety role in accordance with agency standards.




Finding 4           IPPS Review Data Not Analyzed

                    FSIS does not analyze IPPS review data to identify areas in which
                    inspector performance could be improved. Headquarters officials
                    informed us that they rely on supervisors and analysis of establishment
                    data to identify performance issues. These measures, while capable of
                    identifying some performance issues, are not, in our view, as valuable
                    in detecting serious substandard performance trends as an analysis of
                    IPPS review data. An analysis of IPPS data at the national level would
                    allow agency managers to identify in a timely manner the critical
                    training needs of inspection personnel.

                    IPPS reviews contain a wealth of information related specifically to
                    inspector performance, including data about inspectors’ ability to
                    identify and document non-compliance issues at establishments and to
                    test product to ensure food safety. This information, if compiled and
                    analyzed, could greatly improve managers’ ability to identify specific
                    trends in substandard performance. However, FSIS does not compile
                    IPPS review information into a database to monitor completion of
                    reviews or to analyze that information to identify inspector
                    performance trends.

                    Instead, headquarters officials informed us that they analyze several
                    agency databases, such as the Performance Based Inspection System
                    (PBIS), to identify nationwide trends with inspectors and
                    establishments. However, the agency has no procedures to compile
                    IPPS review information into a database, or to analyze that information
                    to identify inspector performance trends. Our view is that FSIS is
                    analyzing data that reflects deficiencies identified at particular
                    establishments, which do not necessarily correlate to deficiencies with
                    inspector performance. PBIS, for example, contains data on
                    establishment deficiencies and regulatory violations. One concern is
                    that this information is input into the system by inspection program
USDA/OIG-A/24601-6-CH                                                              Page 13
                   personnel, who may not be identifying and documenting all problems.
                   The headquarters officials also informed us that they rely on
                   supervisors to evaluate inspection personnel and provide feedback on
                   performance issues. They use this feedback to determine inspector
                   training needs. In our view, this approach is more valuable than
                   analyzing PBIS data and other information related to regulatory
                   deficiencies at establishments. However, since FSIS does not have a
                   coordinated system for obtaining supervisor feedback, it may not be
                   getting a nationwide perspective on inspector performance, especially
                   in regard to specific inspection and verification activities.

Recommendation 7

                   Develop policy and procedures for analyzing IPPS review data to
                   identify needed operational changes and inspector training.

                   Agency Response

                   FSIS officials stated that OFO has begun the process of developing
                   AssuranceNet, an application to support its Management Control
                   System, and IPPS is one of the control activities in this system that will
                   be continuously monitored. They stated that the data resulting from
                   IPPS assessments can be analyzed to assess organizational performance
                   in given areas and allow OFO and other agency program offices to
                   rapidly identify and act when data shows a pattern or trend indicating
                   performance in given areas is below established standards. Full
                   AssuranceNet implementation is expected by July 2006.

                   OIG Position

                   While we agree with the proposed action, the response does not say
                   whether the data will be analyzed. To reach management decision, we
                   need to know whether that the data will be analyzed, not that it can be
                   analyzed.




Finding 5          OPEER Needs To Monitor the IPPS Process

                   FSIS was not using OPEER to routinely evaluate the IPPS review
                   process and to independently monitor district office compliance with
                   IPPS policy and procedures. Headquarters officials stated that OPEER
                   had not developed a routine oversight program of IPPS because those
                   results were related to individual inspectors’ performance.
                   Consequently, district office deficiencies, such as non-compliance with,
                   and inconsistent application of, agency policies and procedures, may
                   not have been identified and corrected by headquarters managers.

USDA/OIG-A/24601-6-CH                                                               Page 14
                   FSIS implemented IPPS to assist supervisors in monitoring non-
                   supervisory inspection program personnel’s performance of assigned
                   duties. Because IPPS will be an integral part of FSIS’ management
                   control system, the process should be periodically examined to evaluate
                   agency policies and procedures and to ensure field office compliance
                   with those guidelines.

                   OPEER’s Program Evaluation and Improvement Staff performed a
                   one-time evaluation of the IPPS review process in 2004. The
                   evaluation examined administrative issues such as whether the review
                   form was user friendly and the process was sufficiently automated to
                   assist managers. The evaluation also covered compliance issues such
                   as whether supervisors had (1) completed IPPS reviews in a timely
                   manner, (2) appropriately marked the review forms, and (3) included
                   narrative descriptions for all deficient or exceptional performance. The
                   evaluation identified procedural and supervisory errors, and
                   recommended actions to correct system weaknesses. Specifically, the
                   OPEER evaluation raised several important issues such as the incorrect
                   use and understanding of IPPS findings, the lack of instructions for
                   completing review forms, and the quality and timing of reviews.

                   The OPEER review demonstrated the value that can be obtained from
                   periodic and regular examinations of the IPPS process. As a result of
                   the review, the agency is in the process of updating IPPS guidance and
                   incorporating suggestions from the review. However, headquarters
                   officials informed us that this was a one-time examination, and they
                   had no plans for OPEER to examine the IPPS review process on a
                   recurring basis. This is unfortunate because many of the errors and
                   lack of compliance we identified during our audit could be uncovered
                   by periodic OPEER examinations. For example, we found instances
                   where supervisors had not completed the required number of IPPS
                   reviews for the rating period and where they had not completed all sub-
                   elements for inspection program personnel. (See Finding 1.)

                   We also identified areas where management could improve its
                   operations. For example, we noted that the IPPS review process could
                   be improved by requiring supervisors to use specific information when
                   preparing for a review (see Finding 2), and that a tracking system
                   would assist managers in monitoring the completion of IPPS reviews.
                   (See Finding 1.) OPEER could readily identify these and other similar
                   issues, and make recommendations to correct systemic weaknesses.




USDA/OIG-A/24601-6-CH                                                              Page 15
Recommendation 8

                   Develop policy and procedures to use OPEER to evaluate and monitor
                   the IPPS review process on a recurring basis.

                   Agency Response

                   OFO, in partnership with OPEER, conducted an evaluation of IPPS in
                   August 2004. OPEER has begun an evaluation of OFO's Management
                   Control System, of which IPPS is a key component. The management
                   control system, particularly once AssuranceNet is available, will
                   provide an excellent tool for on-going monitoring of the IPPS review
                   process. The OPEER review of OFO management controls is expected
                   to be completed by October 2006.

                   OIG Position

                   While we agree with OPEER’s plan to review OFO’s
                   Management Control System, the response did not indicate whether a
                   review of IPPS would be included in a review plan as priorities
                   allow. To reach a management decision, we need a commitment
                   that IPPS will be reviewed on a recurring basis.




USDA/OIG-A/24601-6-CH                                                          Page 16
Scope and Methodology
                   We conducted fieldwork at FSIS Headquarters in Washington, D.C.,
                   and at 2 of the agency’s 15 district offices: District 50 in Lombard,
                   Illinois, and District 45 in Madison, Wisconsin. We judgmentally
                   selected the district offices based on our view that they were
                   representative of the agency’s overall operations. We performed our
                   audit from March 2005 through September 2005.

                   We reviewed 250 IPPS review forms for 119 inspectors. We randomly
                   selected every other inspector on each district’s Assignment Sheet, and
                   we obtained all available 2004–2005 annual performance year IPPS
                   review forms for each selected inspector. This included 155 review
                   forms for 74 of 143 inspectors in the Chicago district office, and
                   95 review forms for 45 of 89 inspectors in the Madison district office.
                   The 2004-2005 annual performance evaluation periods extended from
                   March 1, 2004, to June 30, 2005.

                   We interviewed 10 of the 21 district office supervisors responsible for
                   performing IPPS in the two districts. To accomplish our audit
                   objectives, we also performed the following procedures:

                        •   Reviewed agency policy and procedure manuals for IPPS
                            reviews.
                        •   Analyzed IPPS guidelines and training documents.
                        •   Reviewed agency actions related to prior OIG and GAO audit
                            reports.
                        •   Interviewed headquarters officials responsible for IPPS policies
                            and procedures.
                        •   Interviewed district office managers, deputy district managers,
                            and analysts.
                        •   Reviewed IPPS assessment sheets for completion of elements
                            and sub-elements, and to ascertain details of each supervisory
                            review.

                   We conducted our audit in accordance with Government Auditing
                   Standards issued by the Comptroller General of the United States.




USDA/OIG-A/24601-6-CH                                                              Page 17
Exhibit A – FSIS’ Response to Draft Report
                                             Exhibit A – Page 1 of 6




USDA/OIG-A/24601-6-CH                                     Page 18
Exhibit A – FSIS’ Response to Draft Report
                                             Exhibit A – Page 2 of 6




USDA/OIG-A/24601-6-CH                                     Page 19
Exhibit A – FSIS’ Response to Draft Report
                                             Exhibit A – Page 3 of 6




USDA/OIG-A/24601-6-CH                                     Page 20
Exhibit A – FSIS’ Response to Draft Report
                                             Exhibit A – Page 4 of 6




USDA/OIG-A/24601-6-CH                                     Page 21
Exhibit A – FSIS’ Response to Draft Report
                                             Exhibit A – Page 5 of 6




USDA/OIG-A/24601-6-CH                                     Page 22
Exhibit A – FSIS’ Response to Draft Report
                                             Exhibit A – Page 6 of 6




USDA/OIG-A/24601-6-CH                                     Page 23
Informational copies of this report have been distributed to:

Administrator, Food Safety Inspection Service,
       Attn: Agency Liaison Officer                             20
Government Accountability Office                                 1
Office of Management and Budget                                  1
Office of the Chief Financial Officer
       Director, Planning and Accountability Division            1
